No. 20-303

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
JOSE LUIS VAELLO-MADERO
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

JOINT APPENDIX
ELIZABETH B. PRELOGAR
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

HERMANN FERRÉ
Curtis, Mallet-Prevost, Colt &
Mosle LLP
101 Park Avenue
New York, N.Y. 10178
hferre@curtis.com
(212) 696-6000
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: SEPT. 4, 2020
CERTIORARI GRANTED: MAR. 1, 2021

TABLE OF CONTENTS

Page
Court of appeals docket entries (19-1390) ............................ 1
District court docket entries (3:17-cv2133) .............................. 5
District court complaint (Aug. 25, 2017) ................................... 18
Stipulation for consent judgment (Aug. 31, 2017) ................... 25
Order appointing counsel (Oct. 17, 2017) .................................. 30
Jose Luis Vaello-Madero’s answer and affirmative
defenses to plaintiff ’s complaint (Feb. 1, 2018) .............. 32
Declaration of Jose Luis Vaello-Madero ............................. 37
Social Security Administration notice of planned
action (July 27, 2016) ....................................................... 39
Social Security Administration notice of change in
payment (Aug. 15, 2016) ................................................. 45
Declaration of Raymond Egan .................................................. 51

(I)

UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

Docket No. 19-1390
UNITED STATES OF AMERICA, PLAINTIFF-APPELLANT
v.
JOSE L. VAELLO-MADERO, DEFENDANT-APPELLEE
DOCKET ENTRIES
DATE

PROCEEDINGS

5/3/19

CIVIL CASE docketed. Notice of appeal (doc.
#101) filed by Appellant US. Appearance form,
Docketing Statement, and Transcript Report/
Order form due 05/17/2019. [19-1390] (GRC)

* * * * *
5/22/19 DOCKETING statement filed by Appellant
US. Certificate of service dated 05/22/2019.
[19-1390] (LM)
7/2/19

* * * * *
APPELLANT’S BRIEF filed by Appellant
US. Certificate of service dated 07/02/2019.
Nine paper copies identical to that of the electronically filed brief must be submitted so that
they are received by the court on or before
07/09/2019. Brief due 08/01/2019 for APPELLEE Jose L. Vaello-Madero.
[19-1390]
(AMM)
* * * * *
(1)

2
DATE

PROCEEDINGS

7/11/19 JOINT APPENDIX filed by Appellant US.
Number of volumes: 1. Number of copies:
5. Certificate of service dated 07/02/2019.
[19-1390] (GRC)
8/5/19

* * * * *
APPELLEE’S BRIEF filed by Appellee Jose
L. Vaello-Madero. Certificate of service dated
08/01/2019. Nine paper copies identical to that
of the electronically filed brief must be submitted so that they are received by the court on or
before 08/12/2019. Reply brief due 08/22/2019
for APPELLANT United States. [19-1390]
(AMM)

* * * * *
8/15/19 AMICUS CURIAE BRIEF filed by Amicus
Curiae Virgin Islands Bar Association in support of Appellee. Certificate of service dated
08/08/2019. Nine paper copies identical to that
of the electronically filed brief must be submitted
so that they are received by the court on or before 08/22/2019. [19-1390] (GRC)
* * * * *
8/16/19 AMICUS CURIAE BRIEF filed by Amicus
Curiae Commonwealth of Puerto Rico. Certificate of service dated 08/08/2019. Nine paper
copies identical to that of the electronically
filed brief must be submitted so that they are
received by the court on or before 08/23/2019.
[19-1390] (TS)

3
DATE

PROCEEDINGS

* * * * *
9/20/19 AMICUS CURIAE BRIEF filed by Amicus
Curiae Jenniffer A. Gonzalez-Colon in support
of Appellee.
Certificate of service dated
08/15/2019. Nine paper copies identical to that
of the electronically filed brief must be submitted so that they are received by the court on or
before 09/24/2019.
[19-1390].
CLERK’S
NOTE: Docket entry was edited to replace an
attachment. (GRC)
* * * * *
9/24/19 REPLY BRIEF filed by Appellant US. Certificate of service dated 09/23/2019. Nine paper copies identical to that of the electronically
filed brief must be submitted so that they are
received by the court on or before 10/01/2019.
[19-1390] (LIM)
* * * * *
9/30/19 AMICUS CURIAE BRIEF filed by Movant
Gregorio Igartua-de la Rosa. Certificate of
service dated 09/23/2019. Nine paper copies
identical to that of the electronically filed brief
must be submitted so that they are received by
the court on or before 10/03/2019. [19-1390]
(GRC)
* * * * *
11/4/19 CASE argued. Panel: Jeffrey R. Howard,
Chief Appellate Judge; Juan R. Torruella, Ap-

4
DATE

PROCEEDINGS

pellate Judge and Rogeriee Thompson, Appellate Judge. Arguing attorneys: Michael Shih
for US and Hermann Ferre for Jose L. VaelloMadero. [19-1390] (DJT)
4/10/20 OPINION issued by Jeffrey R. Howard, Chief
Appellate Judge; Juan R. Torruella, Appellate
Judge and Rogeriee Thompson, Appellate
Judge. Published. [19-1390] (GRC)
4/10/20 JUDGMENT entered: This cause came on to
be heard on appeal from the United States District Court for the District of Puerto Rico and
was argued by counsel. Upon consideration
whereof, it is now here ordered, adjudged and
decreed as follows: The judgment of the district court is affirmed. [19-1390] (GRC)
6/1/20

* * * * *
MANDATE issued. [19-1390] (MNH)
* * * * *

5
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
(SAN JUAN)

Case No. 3:17cv2133
UNITED STATE OF AMERICA, PLAINTIFF
v.
JOSE L. VAELLO-MADERO, DEFENDANT
DOCKET ENTRIES
DATE

DOCKET
NUMBER

8/25/17

1

8/31/17

3

PROCEEDINGS

COMPLAINT against Jose L.
Vaello-Madero, filed by United
States of America.
Service
due by 11/27/2017, (Attachments: # 1 Exhibit Certification of Extract From Records,
# 2 Civil Cover Sheet, # 3 Category Sheet) (Martorani-Dale,
David) Modified on 4/6/2018 to
add restriction to exhibit #1 as
per counsel request by phone.
Motion to Restrict will follow
(gmm).
(Entered:
08/25/2017)
* * * * *
* * *
WITHDRAWN AS
PER D.E. # 37 ORDER
* * *
STIPULATION for

6
DATE

DOCKET
NUMBER

10/5/17

4

10/17/17

5

PROCEEDINGS

Consent Judgment by United
States of America. (MartoraniDale, David) Modified on
5/15/2018 (gmm).
(Entered:
08/31/2017)
ORDER re 3 Stipulation filed
by United States of America.
The Court notes that defendant
Vaello-Madero appears pro se,
and in said capacity has entered into a stipulation. It is
the Court’s practice, to the extent possible, to appoint pro
bono counsel to represent pro
se litigants. In fact, the Court
has a pro bono roster of experienced attorneys. Accordingly,
defendant shall on or before
November 8, 2017, advise the
Court if he would like pro bono
representation, and, if so, submit the corresponding forms,
which the Clerk of Court shall
provide to him along with copy
of this order. Motion due by
11/8/2017. Signed by Judge
Gustavo A. Gelpi on 10/5/2017.
(PJH) (Entered: 10/05/2017)
Order appointing counsel.
See PDF. Signed by Judge

7
DATE

DOCKET
NUMBER

PROCEEDINGS

Gustavo A. Gelpi on 10/17/17.
(PJH) (Entered: 10/17/2017)
2/1/18

2/1/18

3/14/18

17

19

23

* * * * *
ANSWER to 1 Complaint with
Jury Demand filed by John W.
Ferre-Crossley on behalf of
Defendant Jose L. VaelloMadero.
(Ferre-Crossley,
John) (Entered: 02/01/2018)
* * * * *
MOTION to Withdraw Stipulation for Consent Judgment by
Jose L. Vaello-Madero (Attachments: # 1 Supplement, # 2
Supplement, # 3 Supplement,
# 4 Text of Proposed Order)
(Ferre-Crossley, John) Modified on 2/2/2018 to correct
event (ram).
(Entered:
02/01/2018)
* * * * *
NOTICE of Voluntary Dismissal Without Prejudice and Response to Defendant’s Motion
to Withdraw Stipulation by
United States of America (Attachments: # 1 Exhibit Notice of Planned Action, # 2 Exhibit Notice of Change in Payment, # 3 Exhibit Declaration

8
DATE

DOCKET
NUMBER

PROCEEDINGS

of Raymond Eagan) (MartoraniDale,
David)
(Entered:
03/14/2018)
4/4/18

4/27/18

25

32

* * * * *
RESPONSE in Opposition to
Motion for Voluntary Dismissal
Without Prejudice filed by Jose
L. Vaello-Madero Re: 23 Notice of Voluntary Dismissal,
filed by United States of America, 24 Order filed by Jose L.
Vaello-Madero.
(Attachments: # 1 Text of Proposed
Order) (Ferre-Crossley, John)
(Entered: 04/04/2018)
* * * * *
REPLY to Response to Motion
in Opposition filed by VaelloMadero at Docket 25 filed by
United States of America Re:
26 MOTION for Leave to File
Document in Reply to VaelloMadero’s Response in Opposition MOTION for Extension of
Time until April 27, 2018 to File
Response/Reply to VaelloMadero’s Response in Opposition as to 25 Response in Opposition to Motion, filed by Jose
L. Vaello-Madero filed by

9
DATE

DOCKET
NUMBER

PROCEEDINGS

United States of America filed
by United States of America.
(Martorani-Dale, David) (Entered: 04/27/2018)
5/2/18

35

5/14/18

36

5/14/18

37

8/10/18

57

* * * * *
SURREPLY to Reply to Opposition to Request for Voluntary
Dismissal Without Prejudice
filed by Jose L. Vaello-Madero
filed by Jose L. Vaello-Madero.
(Ferre-Crossley, John) (Entered: 05/02/2018)
OPINION AND ORDER re 23
Notice of Voluntary Dismissal,
filed by United States of America: DENIED. Signed by
Judge Gustavo A. Gelpi on
5/14/18. (PJH) (Main Document 36 replaced on 5/14/2018
as per Chambers request) (gmm).
(Entered: 05/14/2018)
ORDER: Granting 19 Motion
to
Withdraw
Document.
Signed by Judge Gustavo A.
Gelpi on 5/14/18. (PJH) (Entered: 05/14/2018)
* * * * *
MOTION for Summary Judgment and Incorporated Memorandum of Law filed by John

10
DATE

DOCKET
NUMBER

PROCEEDINGS

W. Ferre-Crossley on behalf of
Jose L. Vaello-Madero Suggestions in Opposition to Summary
Judgment due by 8/24/2018.
NOTE: Pursuant to FRCP
6(a) an additional three days
does not apply to service done
electronically. (Attachments:
# 1 Supplement Statement of
Undisputed Material Facts)
(Ferre-Crossley, John) (Entered: 08/10/2018)
10/10/18

59

10/10/18

60

* * * * *
Cross MOTION for Summary
Judgment filed by Daniel Riess
on behalf of United States of
America Suggestions in Opposition to Summary Judgment
due by 10/24/2018.
NOTE:
Pursuant to FRCP 6(a) an additional three days does not apply to service done electronically.
(Attachments:
# 1
Memorandum of Law, # 2
Statement of Undisputed Material Facts) (Riess, Daniel)
(Entered: 10/10/2018)
RESPONSE in Opposition to
Motion filed by United States
of America Re: 57 MOTION
for Summary Judgment and

11
DATE

DOCKET
NUMBER

10/17/18

61

10/17/18

62

10/18/18

66

PROCEEDINGS

Incorporated Memorandum of
Law filed by Jose L. VaelloMadero filed by United States
of America.
(Attachments:
# 1 Response to Statement of
Facts) (Riess, Daniel) (Entered: 10/10/2018)
Amicus Curiae APPEARANCE entered by Gregorio
Igartua-De-La-Rosa on behalf
of Gregorio Igartua-de-la-Rosa.
(Attachments: # 1 Appendix
II) (Igartua-De-La-Rosa, Gregorio) (Entered: 10/17/2018)
ORDER: The request to appear as Amicus Curiae at
Docket 61 is granted, and the
brief submitted by Gregorio
Igartua shall be made part of
the record. Signed by Judge
Gustavo A. Gelpi on 10/17/2018.
(LE) (Entered: 10/17/2018)
* * * * *
MEMORANDUM in Opposition filed by United States of
America Re: 61 Amicus Curiae Appearance filed by Gregorio Igartua-de-la-Rosa filed
by United States of America.
(Riess,
Daniel)
(Entered:
10/18/2018)

12
DATE

10/24/18

DOCKET
NUMBER

68

11/7/18

76

11/7/18

77

PROCEEDINGS

* * * * *
RESPONSE in Opposition to
Motion for Summary Judgment and Reply Brief in Support of Defendant’s Motion for
Summary Judgment filed by
Jose L. Vaello-Madero Re: 59
Cross MOTION for Summary
Judgment filed by United
States of America, 60 Response
in Opposition to Motion, filed
by United States of America, 57
MOTION for Summary Judgment and Incorporated Memorandum of Law filed by Jose L.
Vaello-Madero filed by Jose L.
Vaello-Madero.
(FerreCrossley, John) (Entered:
10/24/2018)
* * * * *
Amicus BRIEF filed by Commonwealth of Puerto Rico filed
by Commonwealth of Puerto
Rico.
(Penagaricano-Brown,
Susana) Modified on 11/26/2018
to edit docket title(gmm).
(Entered: 11/07/2018)
REPLY to Response to Motion
filed by United States of America Re: 59 Cross MOTION for

13
DATE

11/7/18

DOCKET
NUMBER

78

11/21/18

80

11/21/18

81

12/20/18

86

PROCEEDINGS

Summary Judgment filed by
United States of America filed
by United States of America.
(Riess,
Daniel)
(Entered:
11/07/2018)
BRIEF of Amicus Curiae by
Resident Commissioner of
Puerto Rico.
(FerraiuoliHornedo, Veronica) (Entered:
11/07/2018)
* * * * *
MEMORANDUM in Opposition filed by United States of
America Re: 76 Amicus Brief
filed by Commonwealth of
Puerto Rico filed by United
States of America.
(Riess,
Daniel) Modified on 11/26/2018
to edit docket text (gmm).
(Entered: 11/21/2018)
BRIEF AMICUS CURIAE by
Nogueras Nicolas. (NoguerasCartagena, Nicolas) (Entered:
11/21/2018)
* * * * *
Minute Entry for proceedings
held before Judge Gustavo A.
Gelpi: Oral Arguments held
on 12/20/2018. Arguments
heard on behalf of the parties.

14
DATE

DOCKET
NUMBER

PROCEEDINGS

Simultaneous
supplemental
briefs due by 1/14/2019. Ruling to be issued after briefs are
filed. (Court Reporter Evilys
Carrion.)
(sc)
(Entered:
12/28/2018)
1/14/19

88

* * * * *
Transcript of Civil Hearing
held on 12/20/2018, before
Judge Gustavo A. Gelpi.
Court
Reporter/Transcriber
Evilys E Carrion, Telephone
number 787.772.3377.
NOTICE RE REDACTION OF
TRANSCRIPTS: The parties
have seven (7) calendar days to
file with the Court a Notice of
Intent to Request Redaction of
this transcript. If no such Notice is filed, the transcript will
be available electronically to
the public without redaction after 90 calendar days. The policy
is
located
at
www.prd.uscourts.gov. Transcript may be viewed at the
court public terminal or purchased through the Court
Reporter/Transcriber before
the deadline for Release of
Transcript Restriction. After

15
DATE

DOCKET
NUMBER

PROCEEDINGS

that date it may be obtained
through PACER.. Redaction
Request due 2/4/2019.
Redacted Transcript Deadline set
for 2/14/2019.
Release of
Transcript Restriction set for
4/15/2019.
(eec)
(Entered:
01/14/2019)
1/28/19

2/1/19

94

96

* * * * *
Supplemental Motion in Support re: 57 MOTION for Summary Judgment and Incorporated Memorandum of Law
filed by John W. Ferre-Crossley on behalf of Jose L. VaelloMadero Responses due by
2/11/2019. NOTE: Pursuant
to FRCP 6(a) an additional
three days does not apply to
service done electronically.
(Related
document(s)
57)
(Ferre-Crossley, John) Modified on 2/15/2019 to remove restriction as per 100 Order
(gmm). (Entered: 01/28/2019)
* * * * *
BRIEF (Supplemental) by
United States of America.
(Riess,
Daniel)
(Entered:
02/01/2019)

16
DATE

DOCKET
NUMBER

2/4/19

97

2/4/19

98

4/3/19

101

PROCEEDINGS

OPINION AND ORDER:
Granting 57 motion for summary judgment; Denying 59
motion for summary judgment.
Signed by Judge Gustavo A.
Gelpi on 2/4/2019.
(AGF)
(Main Document 97 replaced on
2/4/2019 to correct date in
PDF) (gmm).
Modified on
2/4/2019 to edit title(gmm).
Modified on 4/5/2019 to correct
Document Type as per Chamber’s request (gmm).
(Entered: 02/04/2019)
JUDGMENT is hereby entered DISMISSING the instant action in favor of defendant Jose Luis Vaello-Madero.
This case is closed. Signed by
Judge Gustavo A. Gelpi on
2/4/2019. (AGF) (Main Document 98 replaced on 2/4/2019 to
correct date in PDF) (gmm).
(Entered: 02/04/2019)
* * * * *
NOTICE OF APPEAL as to 98
Judgment, 97 Opinion and Order on Motion for Summary
Judgment,,, by United States
of America.
NOTICE TO
COUNSEL: Counsel should

17
DATE

DOCKET
NUMBER

PROCEEDINGS

register for a First Circuit
CM/ECF Appellate Filer Account
at
http://pacer.psc.
uscourts.gov/cmecf/. Counsel
should also review the First
Circuit requirements for electronic filing by visiting the
CM/ECF Information section
at http://www.ca1.uscourts.gov/
efiling.htm (Riess, Daniel)
Modified on 4/17/2019 to add
text
(xi).
(Entered:
04/03/2019)
* * * * *

18
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

CIVIL NO.:
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO-MADERO, DEFENDANT
Filed: Aug. 25, 2017
COMPLAINT
TO THE HONORABLE COURT:
COMES NOW Plaintiff, the United States of America,

by and through its undersigned attorneys, and very respectfully STATES, ALLEGES and PRAYS:
NATURE OF THE ACTION

1. Jurisdiction of this action is conferred on this
Court by 28 U.S.C. § 1345 and 42 U.S.C.§408(a)(4).
2. Defendant in this case, Jose Luis Vaello Madero,
is a Social Security Administration (SSA) Title XVI Supplemental Security Income (SSI) disability beneficiary.
SSI is a Federal income supplement program funded by
general tax revenues (not Social Security taxes), and
you must be a U.S. resident, which excludes Puerto
Rico.
3. Defendant currently resides at Barrio Las Carreras, Solar 1, Mediania Alta 1, Loiza, PR 00772.

19
4. After Jose Luis Vaello Madero moved to Puerto
Rico on July 2013, he failed to notify the Social Security
Administration of this move. This caused the Social Security Administration to continue making payments to
the defendant who misappropriated Social Security benefits and payments from July, 2013 until August 8, 2016.
See Certification dated July 19, 2017, and attached as
Exhibit A.
5. The total amount of Social Security Title XVI
benefits illegally cashed by the defendant amounts to
the sum of $28,081.00. See Exhibit A.
WHEREFORE, the United States of America, re-

spectfully requests from this Honorable Court a judgment against the defendant, Mr. Jose Luis Vaello
Madero, in the principal amount of $28,081.00, plus interest at the legal rate from the date of judgment as provided by law until final payment. The United States of
America also requests costs and attorney fees or the
10% surcharge imposed by law if plaintiff needs to utilize the remedies provided under subchapters B or C of
the Federal Debt Collection Procedures Act of 1990, 28
U.S.C 3011.
RESPECTFULLY SUBMITTED.

In San Juan, Puerto Rico, this 25th day of August,
2017.
Rosa Emilia Rodríguez-Velez

United States Attorney

/s/

DAVID O. MARTORANI-DALE
DAVID O. MARTORANI-DALE

Assistant United States Attorney
USDC-PR No.: 226004

20
Torre Chardon, Suite 1201
350 Chardon Street
San Juan, PR 00918
Telephone: 787-766-5656
Fax: 787-766-6219
Email: david.o.martorani@usdoj.gov

21
EXHIBIT A

SOCIAL SECURITY
CERTIFICATION OF EXTRACT FROM RECORDS

Pursuant to the provisions of Title 42, United States
Code, Section 3505, and the authority vested in me by 45
F.R.47245-46, I hereby certify that I have legal custody
of certain records, documents, and other information established and maintained by the Social Security Administration, pursuant to Title 42, United States Code, Section 405, and that the annexed is a true extract from such
records in my custody as aforesaid. I further certify
that all signatures of Administration officials of the annexed document (s) are genuine and made pursuant to
the signers’ official capacity.
IN WITNESS WHEREOF, I have hereunto set my
hand and caused the seal of the Social Security Administration to be affixed this 19th day of July 2017
/s/

EMMANUEL FERNANDEZ
EMMANUEL FERNANDEZ
Deputy Director
Center for Disability and Program Support

SOCIAL SECURITY ADMINISTRATION
BALTIMORE MD 21235-0001

22

SOCIAL SECURITY
Office of the Regional Commissioner
26 Federal Plaza, Room 4060
New York, NY 10278
July 19, 2017
Jorge Santaella
Special Agent
525 Roosevelt Ave., Torre de Plaza,
Suite 1204
San Juan, PR 00918
Dear Sir/Madam:
Re: Jose L.Vaello Madero
SSN: 583-54-1431
OIG OI File No.: SJN1600053G
This certified letter is in response to a request from
Jorge Santaella, Special Agent, SSA/OIG, for an extract
of T16 SSA payments made to Jose L.Vaello Madero
from July 1, 2013 to August 8, 2016.
Mr. Vaello Madero’s Supplemental Security Income
payment amounts from July 1, 2013 to August 8, 2016
are provided as a separate attachment.

23
Questions concerning this response may be directed to
Ms. Johnson of the Center for Disability and Program
Support at 212-264-7193.
Sincerely yours,
/s/

EMMANUEL FERNANDEZ
EMMANUEL FERNANDEZ
Deputy Director
Center for Disability and Program Support

24
Breakdown of Payments for JOSE LUIS VAELLO,
MADERO from 7/2013 to 8/2016.
Month

Payment

Month

Payment

Month

Payment

07/2013

$797.00

08/2014 $808.00

09/2015 $733.00

08/2013

$797.00

09/2014 $808.00

10/2015 $733.00

09/2013

$797.00

10/2014 $721.00

11/2015 $733.00

10/2013

$797.00

11/2014 $721.00

12/2015 $733.00

11/2013

$797.00

12/2014 $721.00

01/2016 $733.00

12/2013

$797.00

01/2015 $733.00

02/2016 $733.00

01/2014

$808.00

02/2015 $733.00

03/2016 $733.00

02/2014

$808.00

03/2015 $733.00

04/2016 $733.00

03/2014

$808.00

04/2015 $733.00

05/2016 $733.00

04/2014

$808.00

05/2015 $733.00

06/2016 $733.00

05/2014

$808.00

06/2015 $733.00

07/2016 $733.00

06/2014

$808.00

07/2015 $733.00

08/2016 $733.00

07/2014

$808.00

08/2015 $733.00

25
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

CIVIL NO.: 17-2133 (GAG)
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO-MADERO, DEFENDANT
Filed: Aug. 31, 2017
COLLECTION OF PENALTY
STIPULATION FOR CONSENT JUDGMENT

The Plaintiff, United States of America, has filed a
civil action for collection of penalty against Defendant
Jose Luis Vaello Madero, in relation to Social Security
overpayments that were unlawfully collected and/or resulted in the collection by the defendant.
IT IS STIPULATED AND AGREED by the parties in
this case, the United States and Defendant Jose Luis
Vaello Madero, that judgment be entered as follows:

1. [J.L.V.] Defendant Jose Luis Vaello Madero confesses and acknowledges that he unlawfully collected the Title XVI Social Security benefits after
moving to Puerto Rico and failed to notify the Social Security Administration.
2. [J.L.V.] Defendant received a total undue collection of $28,080.00 for Social Security benefits.

26
3. [J.L.V.] Defendant requests and consents that
judgment is entered against him for the sum of
$28,081.00, plus interest at the legal rate from the
entry of judgment, until paid in full and costs, in
accordance with the terms and conditions set
forth in this stipulation.
4. [J.L.V.] Defendant agrees to pay the United
States of America the sum of $28,08.00, as follows:
a.

[J.L.V.] Defendant will make monthly installments payments of $100.00, starting on September 1, 2017, to be credited to the account
of Jose Luis Vaello Madero, with social security number xxx-xx-1431, until final payment
of the owed amounts.

b.

[J.L.V.] Defendant agrees that copy of the
Judgment by Consent entered by the Court
be delivered to the Social Security Administration.

c.

[J.L.V.] Defendant may pay larger installments or pay the entire unpaid balance of the
judgment amount in advance, without penalty.

d.

[J.L.V.] Should defendants’ payment status
become delinquent thirty (30) days or more,
the entire unpaid balance of the judgment
amount shall become immediately due and
payable, with interest at the legal rate from
the date of entry of the Judgment by Consent, immediately without further notice to
the defendant.

27
e.

[J.L.V.] In the event defendants’ payment
status becomes delinquent fifteen (15) days
or more in payment of any installments due
here under, plaintiff shall seek judicial enforcement of this Judgment by Consent.

5. [J.L.V.] The Court shall retain jurisdiction over
this action in order to enforce this Judgment by
Consent.
6. [J.L.V.] Defendant agrees to provide all available
financial information that plaintiff may request at
any time after the entry of the judgment until the
stipulated amount is paid in full.
7. [J.L.V.] Defendant consents that once Judgment
is entered, Plaintiff may proceed to record said
judgment at the Property Registration Office, to
create a judgment lien or any other lien upon any
real estate properties that the defendant may
own, or in which the defendant may have an undivided common ownership with other properties,
or a participation in ownership.
8. [J.L.V.] In the event the Plaintiff has to seek remedies before this Honorable Court for Execution
of Judgment, Plaintiff will be entitled to recover,
in addition to the amount owed, a 10% surcharge
imposed by law under 28 U.S.C. § 3011.
9. [J.L.V.] Defendant is aware of the fact that this
Stipulation for Consent Judgment will become an
integral part of the judgment to be entered by the
Court.
10. [J.L.V.] Defendant acknowledges that he was
informed of his right to retain counsel, and fully

28
aware of this fact, has waived that right and enters into this agreement.
11. [J.L.V.] Defendant, with his signature, certifies
he can read and understand English, understands the document, is aware of the implications,
consequences of rights and concessions made,
and, as such, has entered into this agreement
freely and voluntarily, without any degree of duress or compulsion.

29
WHEREFORE, the United States of America and

Defendant Jose Luis Vaello Madero, respectfully request this Honorable Court to approve this stipulation
and enter Judgment accordingly.
RESPECTFULLY SUBMITTED.

In San Juan, Puerto Rico, this [30] of Aug., 2017.
/s/

JOSE LUIS VAELLO MADERO
JOSE LUIS VAELLO MADERO
Defendant

Rosa Emilia Rodríguez-Vélez

United States Attorney

/s/

JORGE SANTAELLA
JORGE SANTAELLA

/s/

DAVID O. MARTORANI-DALE
DAVID O. MARTORANI-DALE
Assistant United States Attorney
USDC-PR No.: 226004
Torre Chardon, Suite 1201
350 Chardon Street
San Juan, PR 00918
Telephone: 787-766-5656
Fax: 787-766-6219
Email: david.o.martorani@usdoj.gov

30
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

CASE NO. 17-2133 (GAG)
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO MADERO, DEFENDANT
Filed: Oct. 17, 2017
ORDER APPOINTING COUNSEL

In light of the aftermath of Hurricanes Irma and María, the Court hereby takes the initiative of appointing
pro bono counsel to Mr. Vaello-Madero and appoints attorney Hermann Ferré from the New York firm Curtis,
Mallet-Prevost, Colt & Mosle, LLP. His contact information is hferre@curtis.com, 212-696-8871 and 101
Park Ave, NY, NY 10178.
Counsel Ferré shall file with this Court the requisite
pro hac vice motion, however, the fee shall be waived.
In addition other counsel from his firm may also appear
pro hac vice under the same conditions. See L.CV.R.
83a(f ).
As local counsel the Court appoints attorney John W.
Ferré-Crossley, who is a member of the bar of this court
in good standing. Both he and counsel Hermann Ferré
have accepted this pro hac vice appointment. Counsel
shall meet with their client as soon as conditions permit
and inform the Court on or before December 15, 2017 as

31
to any pertinent matter. This period may be extended
if warranted.
SO ORDERED.

In San Juan, Puerto Rico this 17th day of Oct., 2017.
/s/

GUSTAVO A. GELPÍ
GUSTAVO A. GELPI
United States District Judge

32
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

Case No. 17-2133 (GAG)
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO-MADERO, DEFENDANT
Filed: Feb. 1, 2018
JOSE LUIS VAELLO-MADERO’S ANSWER AND
AFFIRMATIVE DEFENSES TO PLAINTIFF’S
COMPLAINT

Jose Luis Vaello-Madero, by his undersigned attorneys, files his answer and affirmative defenses to Plaintiff United States of America’s Complaint (the “Complaint”), and states as follows:
ANSWER

1. Paragraph 1 of the Complaint does not require a
response from Mr. Vaello-Madero.
2. Paragraph 2 of the Complaint does not require a
response from Mr. Vaello-Madero.
3. Mr. Vaello-Madero admits the allegation in paragraph 3 of the Complaint.
4. Mr. Vaello-Madero admits that he moved to Puerto
Rico in July 2013, but denies the remainder of the allegations in paragraph 4 of the Complaint.

33
5. Mr. Vaello-Madero admits that the Social Security Administration (“SSA”) paid the amount of
$28,081.00 in Social Security Title XVI disability benefits for the period July 2013 to August 2016, but denies
the remainder of the allegations in paragraph 5 of the
Complaint.
BACKGROUND OF THE CASE

6. Between 1985 and 2013, Mr. Vaello-Madero was
a resident of New York.
7. While residing in New York and experiencing severe health problems, Mr. Vaello-Madero applied for
Social Security Title XVI Supplemental Security Income (“SSI”) disability benefits with the assistance of a
non-profit organization.
8. Mr. Vaello-Madero received his SSI disability
payments through direct deposit into a New York bank
account opened with the assistance of the same nonprofit organization that had helped Mr. Vaello-Madero
with his SSI application.
9. On July 6, 2013, Mr. Vaello-Madero moved to
Loiza, Puerto Rico to help care for his wife, who had previously moved to Loiza due to her own health issues.
He continued to receive SSI disability payments through
direct deposit into his New York bank account.
10. In June 2016, approximately one month before
his 62nd birthday, Mr. Vaello-Madero applied to receive
Title II social security benefits. He was assisted in his
application by an SSA employee at the SSA office in
Carolina, Puerto Rico.
11. The SSA employee noted that Mr. Vaello-Madero
was already in SSA’s beneficiary database and asked

34
Mr. Vaello-Madero if he was a resident of New York.
After confirming that he no longer lived in New York,
he was told that in order to be able to receive his Title
II social security benefits he could no longer receive SSI
disability payments. He was asked to sign a few forms
so as to finalize his application.
12. Mr. Vaello-Madero was not aware at the time of
his move that moving to Puerto Rico would affect his
ability to receive SSI disability benefits.
13. Mr. Vaello-Madero received his last SSI disability payment in August 2016.
FIRST AFFIRMATIVE DEFENSE

14. Plaintiff has asserted 42 U.S.C. § 408(a)(4) as one
of the bases of jurisdiction for this action. 42 U.S.C.
§ 408(a)(4) requires an intent to fraudulently secure payment when no payment is authorized under the Social
Security Act. Plaintiff has failed to allege specific intent to defraud by Mr. Vaello-Madero.
SECOND AFFIRMATIVE DEFENSE

15. A violation under 42 U.S.C. § 408(a)(4) is a felony,
potentially resulting in imprisonment of up to five years.
Any prosecution under 42 U.S.C. § 408(a)(4) can only be
instituted after presentment or indictment by a Grand
Jury, which has not occurred here. To the extent Plaintiff ’s action is a proceeding under 42 U.S.C. § 408(a)(4),
Plaintiff has violated Mr. Vaello-Madero’s due process
rights under the United States Constitution.
THIRD AFFIRMATIVE DEFENSE

16. To the extent that Title XVI of the Social Security
Act denies residents of Puerto Rico the right to receive
the federally funded portion of SSI benefits to the same

35
extent as residents of the United States (defined in Section 1614(e) of the Social Security Act as “the 50 states
and the District of Columbia”), it is unconstitutional as
a violation of the equal protection guarantee of the due
process clause of the Fifth Amendment to the United
States Constitution.
ADDITIONAL AFFIRMATIVE DEFENSES

17. Mr. Vaello-Madero reserves the right to interpose any and all additional affirmative defenses to the
Complaint as may be revealed through discovery.
PRAYER FOR RELIEF
WHEREFORE, Defendant Jose Luis Vaello-Madero

respectfully seeks judgment:

A. Dismissing with prejudice the claim asserted
against Mr. Vaello-Madero;
B. Declaring that Title XVI of the Social Security
Act is unconstitutional to the extent it denies residents
of Puerto Rico the same participation in the SSI program as residents of the United States (as defined in
Section 1614(e));
C. Reinstating Mr. Vaello-Madero’s SSI benefits,
and granting him benefits retroactive to the date of termination; and
D. Granting such other and further relief as this
Court may deem just and proper.
JURY DEMAND

Mr. Vaello-Madero hereby demands a trial by jury in
this matter.

36
Date: Feb. 1, 2018
Respectfully submitted,
/s/

JOHN W. FERRÉ-CROSSLEY
JOHN W. FERRÉ-CROSSLEY
USDC-PR No. 227703
johnferre@gmail.com
Hermann Ferré (admitted pro hac vice)
hferre@curtis.com
Juan Perla (admitted pro hac vice)
jperla@curtis.com
Robert Groot (admitted pro hac vice)
rgroot@curtis.com
CURTIS, MALLET-PREVOST,
COLT & MOSLE LLP
101 Park Avenue
New York, New York 10178-0061
Tel: (212) 696-6000
Fax: (212) 697-1559
Counsel for Defendant
Jose-Luis Vaello Madero

37
English translation
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

Case No. 17-2133 (GAG)
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO-MADERO, DEFENDANT
DECLARATION OF JOSE LUIS VAELLO-MADERO

I, Jose Luis Vaello-Madero, declare under penalty of
perjury:
1. That I am submitting this declaration in support
of the Motion to Withdraw the Stipulation for Consent
Judgment filed concurrently herewith.
2. That my native language is Spanish. I have only
a limited understanding of English and do not speak it
fluently.
3. That, on August 30, 2017, I signed the Stipulation
for Consent Judgment filed on August 31, 2017 (the
“Stipulation”).
4. That, at that time, I was not represented by counsel. I did not understand the terms and conditions of
the Stipulation or the legal implications and consequences
of accepting responsibility for “unlawfully” collecting
SSI disability benefits. Nor was I aware of my right to
trial on this issue or the burden of proof required of the
Government.

38
5. That, on October 17, 2017, this Court appointed
pro bono counsel to represent me in this action. Now
that I have been advised by counsel, I understand the
legal significance of the Stipulation. I declare that I did
not intend to consent to the Stipulation’s terms and conditions and I no longer consent to the entry of judgment
as contemplated therein.
In San Juan, Puerto Rico the 25th of Jan., 2018
____________________________
Jose Luis Vaello-Madero

39
Social Security Administration
Supplemental Security Income

Notice of Planned Action

SOCIAL SECURITY
5829 65 INF AVE RM 201
ESCORIAL SHOPPING CTR
CAROLINA PR 00987
Date: July 27, 2016
Claim Number: [REDACTED]-1431 DI
A31 16S1897E98627
JOSE LUIS VAELLO MADERO
[REDACTED]
LOIZA PR 00772
We plan to lower your monthly Supplemental Security
Income (SSI) payment from $773.00 to $0.00 beginning
September 2016. The amount will change because you
are outside the United States (U.S.).
We are also changing the amounts you were due for August 2014 through August 2016.
Your amounts
changed for the following reasons:
• You were outside of the United States (U.S.) for
August 2014 through August 2016.
• You lived in a different State for August 2014
through September 2014.
Your Payments Will Be Changed As follows:

From
August 1, 2014

Through
Continuing

Amount
Due Each Month
$0.00

40
Information Used In Making The Decision

You cannot receive SSI for any month you are outside
of the U.S. for 30 days in a row or more.
If you are outside of the U.S. for 30 days in a row or
more, you must be back in the U.S. for 30 days in a
row before you can receive SSI again.
We consider the U.S. to be the 50 States of the U.S.,
the District of Columbia, and the Northern Mariana
Islands.
You have been outside the U.S. for at least 30 days in
a row. As a result, you cannot receive SSI for August 2014 on.
You Can Review The Information in Your Case

The decisions in this letter are based on the law and
information in our records. You have a right to review and get copies of the information in our records
that we used to make the decisions explained in this
letter. You also have a right to review and copy the
laws, regulations, and policy statements used in deciding your case. To do so, please contact us. Our
telephone number and address are shown under the
heading “If You Have Questions”.
Things You Should Know

• We may be in touch with you later about any payments we previously made.
• We will send any decision about your benefits under other Social Security programs in a separate
letter.
• We have made a new decision on your case. It replaces all earlier decisions for the above periods.

41
• If at any time in the future you think you qualify
for payment, please contact us immediately about
filing a new application. The earliest month for
which we can pay you is the month after you file a
new application.
If You Disagree

If you disagree with this decision, you have the right to
appeal. A person who did not make the first decision
will decide the appeal. We call this appeal a reconsideration. When you appeal, we review your entire
case, even the parts with which you agree. We consider any new facts we have and then make a new decision. The new decision could be more favorable,
less favorable , or the same as the one you already
have.
Time To File An Appeal

• You have 60 days to file an appeal in writing.
• The 60 days start the day after you receive this
letter. We assume you received this letter 5
days after the date on the letter.
• You must have a good reason for waiting more
than 60 days to file an appeal.
Appeal In 10 Days To Keep Receiving The Same Payment

If we receive your written appeal within 10 days, your
payment amount will not change until we decide your
case.
• The 10 days start the day after you received this
letter.
• If you lose your appeal, you might have to pay
back some or all of this money.

42
However, even if you appeal within 10 days, we may stop
your payment in September 2016 if both of the following
are true:
• Our new decision is the same as the one you appealed, and
• We send or give you a letter with our new decision
in time to stop the payment.
How To Appeal

You can file an appeal with any Social Security office.
You must request the appeal in writing. Please use our
“Request for Reconsideration” form, SSA-561-U2,
which is available on our website at www.socialsecurity.gov on the Internet. You can also contact us by
phone, by mail, or come into the office to obtain the
form. If you need assistance, we can help you fill out
the form.
There are 3 types of appeals. In most cases, you can
choose the one you want.
• Case Review: You will not meet with the person
who decides your case. You have a right to review the facts in your file. You can give us more
facts to add to your file. Then we will decide your
case again. This is the only kind of appeal you
can have for a medical decision.
• Informal Conference: You will talk with the person who decides your case either in person or over
the phone. You can tell that person why you disagree with our decision. If you meet with us in
person, it may help your case. You have a right
to review the facts in your file. You can give us
more facts to add to your file. You can have other

43
people help explain your case. Then we will decide your case again.
• Formal Conference: This is a meeting like an
informal conference. The difference is we can require people to come to help prove you are right.
We can require them to bring important papers
about your case, even if they do not want to help
you. You can question these people at your meeting. Then we will decide your case again.
If You Want Help With Your Appeal

You may choose to have a representative help you.
We will work with this person just as we would work
with you. If you decide to have a representative, you
should find one quickly so that person can start preparing your case.
Many representatives charge a fee only if you receive
benefits. Others may represent you for free. Usually, your representative may not charge a fee unless
we approve it. Your local Social Security office can
give you a list of groups that can help you find a representative.
If you get a representative, you or that person must
notify us in writing. You may use our Form SSA1696-U4 Appointment of Representative. Any local
Social Security office can give you this form.
Suspect Social Security Fraud?

Please visit http://oig.ssa.gov/r or call the Inspector
General’s Fraud Hotline at 1-800-269-0271 (TTY
1-866-501-2101).

44
If You Have Questions

If you have any questions, please:
• Visit our website at www.socialsecurity.gov to find
general information about SSI;
• Visit our website at www.socialsecurity.gov/SSI
rules/to find the law and regulations about SSI eligibility and payments;
• Call us toll-free at 1-800-772-1213 or call your local
office at 866-890-6094. We can answer most
questions over the phone. If you are deaf or hard
of hearing, our toll-free TTY number is
1-800-325-0778; or
• Write or visit any Social Security office. If you
plan to visit an office, you may call ahead to make
an appointment. The office that serves your area
is located at:
SOCIAL SECURITY
ESCORIAL SHOPPING CTR
5829 65 INF AVE RM 201
CAROLINA PR 00987
Please have this letter with you if you call or visit an office. If you write, please include a copy of the first
page of this letter. It will help us answer your questions. We are busiest early in the week and early in the
month. If your business can wait, it is best to call or
visit at other times.
Social Security Administration

45
Social Security Administration
Supplemental Security Income

Notice of Change in Payment

SOCIAL SECURITY
5829 65 INF AVE RM 201
ESCORIAL SHOPPING CTR
CAROLINA PR 00987
Date: Aug. 15, 2016
Claim Number: [REDACTED]-1431 DI
A31 16S1897E98627
JOSE LUIS VAELLO MADERO
[REDACTED]
LOIZA PR 00772
Your current monthly Supplemental Security Income
(SSI) payment is $0.00 for September 2016.
We are changing the amounts you were due for August
2013 through July 2014. Your amounts changed for the
following reasons:
• You were outside of the United States (U.S.) for
August 2013 through July 2014.
• You lived in a different State for August 2013
through July 2014.
Your Payments Will Be Changed As follows:

From
August 1, 2013

Through
July 31, 2014

Amount
Due Each Month
$0.00

Information Used In Making The Decision

You cannot receive SSI for any month you are outside
of the U.S. for 30 days in a row or more.

46
If you are outside of the U.S. for 30 days in a row or
more, you must be back in the U.S. for 30 days in a
row before you can receive SSI again.
We consider the U.S. to be the 50 States of the U.S.,
the District of Columbia, and the Northern Mariana
Islands.
You have been outside the U.S. for at least 30 days in
a row. As a result, you cannot receive SSI for August 2013 through July 2014.
You Can Review The Information in Your Case

The decisions in this letter are based on the law and
information in our records. You have a right to review and get copies of the information in our records
that we used to make the decisions explained in this
letter. You also have a right to review and copy the
laws, regulations, and policy statements used in deciding your case. To do so, please contact us. Our
telephone number and address are shown under the
heading “If You Have Questions”.
Things You Should Know

• We may be in touch with you later about any payments we previously made.
• We will send any decision about your benefits under other Social Security programs in a separate
letter.
• We have made a new decision on your case. It replaces all earlier decisions for the above period.
If You Disagree

If you disagree with this decision, you have the right to
appeal. A person who has not seen your case will

47
look at it. We call this appeal a hearing. When you
appeal, we review your entire case, even the parts
with which you agree. We consider any new facts we
have and then make a new decision. The new decision could be more favorable, less favorable, or the
same as the one you already have.
Time To File An Appeal

• You have 60 days to request a hearing in writing.
• The 60 days start the day after you receive this
letter. We assume you received this letter 5 days
after the date on the letter.
• You must have a good reason for waiting more
than 60 days to request a hearing.
How To Appeal

You can file an appeal with any Social Security office.
You must request the appeal in writing. Please use
our “Request for Hearing” form, HA-501-U5, which
is available on our website at www.socialsecurity.gov
on the Internet. You can also contact us by phone,
by mail, or come into the office to obtain the form. If
you need assistance, we can help you fill out the form.
How A Hearing Works

If you ask for a hearing, we will send your case to an
Administrative Law Judge (ALJ). The ALJ will
mail you a letter at least 20 days before the hearing
to tell you the date, time, and place of the hearing.
The letter will explain the law in your case and tell
you what the ALJ has to decide. Since the ALJ will
review all the facts in your case, it is important that
you give us any new facts as soon as you can.

48
The hearing is your chance to tell the ALJ why you
disagree with the decision in your case. You can
give the ALJ new evidence and bring people to help
explain your case. The ALJ also can require people
to bring important papers to your hearing and give
facts about your case. You can question these people at your hearing.
It Is Important To Go To The Hearing

We will ask if you want to go to the hearing in person.
If you say you want to go, you should attend. If for
any reason you can’t go, please contact the ALJ as
soon as possible before the hearing and explain why.
The ALJ will reschedule the hearing if you have a
good reason. If you do not come to the hearing after
telling us you will be there, we may dismiss your appeal. You will not be able to appeal further. You
should know that being there may help the ALJ decide your case.
If You Want Help With Your Appeal

You may choose to have a representative help you.
We will work with this person just as we would work
with you. If you decide to have a representative, you
should find one quickly so that person can start preparing your case.
Many representatives charge a fee only if you receive
benefits. Others may represent you for free. Usually, your representative may not charge a fee unless
we approve it. Your local Social Security office can
give a list of groups that can help you find a representative.
If you get a representative, you or that person must
notify us in writing. You may use our Form SSA-

49
1696-U4 Appointment of Representative. Any local
Social Security office can give you this form.
Suspect Social Security Fraud?

Please visit http://oig.ssa.gov/r or call the Inspector
General’s Fraud Hotline at 1-800-269-0271 (TTY
1-866-501-2101).
If You Have Questions

If you have any questions, please:
• Visit our website at www.socialsecurity.gov to find
general information about SSI;
• Visit our website at www.socialsecurity.gov/SSIrules/
to find the law and regulations about SSI eligibility
and payments;
• Call us toll-free at 1-800-772-1213 or call your local
office at 866-890-6094. We can answer most questions over the phone. If you are deaf or hard of hearing, our toll-free TTY number is 1-800-325-0778; or
• Write or visit any Social Security office. If you plan
to visit an office, you may call ahead to make an appointment. The office that serves your area is located at:
SOCIAL SECURITY
ESCORIAL SHOPPING CTR
5829 65 INF AVE RM 201
CAROLINA PR 00987
Please have this letter with you if you call or visit an office. If you write, please include a copy of the first
page of this letter. It will help us answer your questions. We are busiest early in the week and early in the

50
month. If your business can wait, it is best to call or
visit at other times.
Social Security Administration

51
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

CIVIL CASE No. 17-2133 (GAG)
UNITED STATES OF AMERICA, PLAINTIFF
v.
JOSE LUIS VAELLO-MADERO, DEFENDANT
DECLARATION OF RAYMOND EGAN, ASSISTANT
REGIONAL COMMISSIONER FOR MANAGEMENT
AND OPERATIONS SUPPORT
NEW YORK REGIONAL OFFICE
SOCIAL SECURITY ADMINISTRATION

I, Raymond Egan, Region II, Social Security Administration (SSA), declare and state as follows:
1. As the Assistant Regional Commissioner for Management and Operations Support, I oversee the staff
of the Management and Operations Support for Region II of SSA. A review of the Defendant’s Social
Security record shows the following:
2. On July 27, 2016, SSA issued a Notice of Planned Action stating that SSA planned to lower the Defendant’s monthly Supplemental Security Income (SSI)
payment from $733.00 to $0.00 beginning September
2016 because the Defendant was outside of the United
States. The Notice also advised that SSA was changing the monthly benefit amounts that the Defendant
was due for the period of August 2014 through Au-

52
gust 2016 to $0.00 because the Defendant was outside of the United States during this period. The
Notice further advised that the Defendant had 60
days to file an appeal in writing. See Exhibit A.
3. On August 15, 2016, SSA sent the Defendant a Notice
of Change in Payment , advising the Defendant that
SSA was changing the monthly benefit amounts that
he was due for the period of August 1, 2013 through
July 31, 2014 to $0.00 because the Defendant was outside of the United States during this period. The
Notice also advised that the Defendant had 60 days
to request a hearing in writing. See Exhibit B.
4. A diligent review of the Defendant’s Social Security
record does not show that the Defendant filed any
appeal or hearing request in writing with the agency,
with respect to either Notice.
5. A diligent review of the Defendant’s Social Security
record confirms that SSA did not send the Defendant
a Notice of Overpayment advising that he had accrued an overpayment of SSI benefits, in connection
with the benefit reductions described above.
In accordance with 28 U.S.C § 1746, I declare under penalty of perjury that the foregoing is true and correct to
the best of my knowledge and belief.
Executed Mar. 13, 2018
/s/

RAYMOND EGAN
RAYMOND EGAN

